Report No. DODIG-2013-052                      March 8, 2013





         Inadequate Contract Oversight of Military 

      Construction Projects in Afghanistan Resulted in 

          Increased Hazards to Life and Safety of 

                      Coalition Forces

Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (571) 372-7469.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing at auditnet@dodig.mil or by mail:

                      Department of Defense Office of Inspector General
                      Office of the Deputy Inspector General for Auditing
                      ATTN: Audit Suggestions/13F25-04
                      4800 Mark Center Drive
                      Alexandria, VA 22350-1500




Acronyms and Abbreviations
A-E                           Architect-Engineer
AFCEC                         Air Force Civil Engineer Center
AFCEE                         Air Force Center for Engineering and Environment
COR                           Contracting Officer’s Representative
ESS                           Enterprise Sourcing Squadron
FAR                           Federal Acquisition Regulation
GEITA                         Global Engineering, Integration, and Technical Assistance
IG                            Inspector General
MILCON                        Military Construction
QA                            Quality Assurance
QASP                          Quality Assurance Surveillance Plan
QC                            Quality Control
RSOI                          Reception, Staging, Onward-Movement, and Integration
SOR                           Statement of Requirement
SOW                           Statement of Work
TAD                           Technical Assessment Directorate
TEAM                          Team Integrated Engineering, Inc.
USFOR-A                       U.S. Forces-Afghanistan
                                 INSPECTOR GENERAL 

                                DEPARTMENT OF DEFENSE 

                                4800 MARK CENTER DRIVE 

                             ALEXANDRIA, VIRGINIA 22350-1500



                                                                               March 8, 2013

MEMORANDUM FOR COMMANDER, U.S. FORCES-AFGHANISTAN
               ASSISTANT SECRETARY OF THE AIR FORCE
                 (FINANCIAL MANAGEMENT AND COMPTROLLER)
               DIRECTOR, AIR FORCE CIVIL ENGINEER CENTER


SUBJECT: Inadequate Contract Oversight of Military Construction Projects in Afghanistan
         Resulted in Increased Hazards to Life and Safety of Coalition Forces
         (Report No. DODIG-2013-052)

We are providing this report for review and comment. Air Force Center for Engineering and
Environment officials did not provide effective oversight of military construction projects in
Afghanistan. As a result, the life and safety of Camps Bastion/Leatherneck coalition forces
who occupied the Secure Reception, Staging, Onward-Movement, and Integration facility
and the Command and Control facility were at increased risk. We considered management
comments on a draft of this report when preparing the final report.

DoD Directive 7650.3 requires that recommendations be resolved promptly. Comments
from the Director, Joint Programs Integration Office, U.S. Forces-Afghanistan, on
Recommendation 2 were responsive. However, we included an incorrect project number in
draft Recommendation 2. As such, we revised Recommendation 2 to include the project
number for the Secure Reception, Staging, Onward-Movement, and Integration facility. We
request that the Director, Joint Programs Integration Office, U.S. Forces-Afghanistan,
provide additional comments on Recommendation 2 by April 8, 2013. The Director, Air
Force Civil Engineer Center did not comment on a draft of this report. We request that the
Director provide comments in response to the final report by April 8, 2013.

If possible, send a Microsoft Word (.doc) file and portable document format (.pdf) file
containing your comments. Portable document format (.pdf) copies of your comments must
have the actual signature of the authorizing official for your organization. We are unable to
accept the /Signed/ symbol in place of the actual signature. Comments provided on the draft
report must be marked and portion-marked, as appropriate, in accordance with DoD
Manual 5200.1. If you arrange to send classified comments electronically, you must send
them over the SECRET Internet Protocol Router Network (SIPRNET).

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 604-8905 (DSN 664-8905).



                                             Amy J. Frontz
                                             Principal Assistant Inspector General
                                                for Auditing
Report No. DODIG-2013-052 (Project No. D2012-D000JB-0126.000)                                March 8, 2013

               Results in Brief: Inadequate Contract
               Oversight of Military Construction Projects in
               Afghanistan Resulted in Increased Hazards to
               Life and Safety of Coalition Forces
What We Did                                                May 2012 and again during meetings held in
                                                           June 2012. According to Air Force Civil Engineer
Our objective was to determine whether the Air             Center officials, all electrical deficiencies were
Force Center for Engineering and the Environment           corrected as of October 2012. In addition, Air
(AFCEE) provided effective oversight of                    Force Civil Engineer Center officials stated that
construction projects in Afghanistan. We selected          additional strobe lights were installed in one
a nonstatistical sample of 4 of the 19 military            facility on October 15, 2012 and the fire
construction projects located at Camps                     department conducted its official fire alarm and
Bastion/Leatherneck that met our criteria to               functionality test on that same date and found no
determine whether AFCEE officials properly                 issues. Air Force Civil Engineer Center officials
monitored contractor performance and adequately            also stated that they planned to install additional
performed quality assurance oversight                      egress doors on the second floor of one facility;
responsibilities during construction.                      however, they did not plan to install a fire
                                                           suppression system in either facility.
What We Found
AFCEE Contingency Construction Division                    What We Recommend
officials did not provide effective oversight of           The Director, Air Force Civil Engineer Center,
military construction projects in Afghanistan.             should develop quality assurance surveillance
Specifically, AFCEE officials did not develop a            plans for the Title I, Title II, and Global
formal process to monitor, assess, and document            Engineering, Integration, and Technical Assistance
the quality of work performed by contractor                contract task orders and develop procedures to
personnel for four projects valued at $36.9 million.       verify contracting officer’s representatives conduct
AFCEE officials stated that this occurred because          and document appropriate surveillance of
they relied completely on the technical expertise of       contractors as called for in the quality assurance
their contractor personnel. In addition, AFCEE             surveillance plan, to ensure that work performed is
officials stated the Federal Acquisition Regulation        carried out in accordance with the task order
requirement for a quality assurance surveillance           requirements.
plan did not apply to architect-engineer services
contracts.                                                 The Commander, U.S. Forces-Afghanistan and the
                                                           Director should assess the life and safety hazards
As a result, AFCEE’s process for developing and            identified and determine the appropriate actions
reviewing contract requirements design was not             needed to correct the electrical hazards and fire
adequate to prevent conflicting electrical standards       safety and emergency egress deficiencies.
from being cited in one contract’s Statement of
Work and Statement of Requirement and incorrect            Management Comments and
fire protection standards from being cited in two
contracts’ Statements of Requirement used during           Our Response
construction. In addition, AECOM personnel at              The Director, Joint Programs Integration Office,
Camps Bastion/Leatherneck did not identify                 U.S. Forces-Afghanistan, agreed with the report
significant deficient work performed. The                  recommendation directed to U.S. Forces-
deficiencies led to serious increased hazards to the       Afghanistan and his comments were responsive.
life and safety of coalition forces who occupy two         The Director, Air Force Civil Engineer Center, did
of the four facilities reviewed at Camps                   not comment on a draft of this report. We request
Bastion/Leatherneck, and contributed to over a             additional comments by April 8, 2013, as indicated
6-month delay in government acceptance of one              in the recommendation table on page ii.
facility. We notified AFCEE officials of those
deficiencies during a site visit to Afghanistan in
                                                       i
Report No. DODIG-2013-052 (Project No. D2012-D000JB-0126.000)                   March 8, 2013


      Recommendations Table

                                                        Recommendations      No Additional
                     Management                        Requiring Comment   Comments Required
      Commander, U.S. Forces-Afghanistan                         2
      Director, Air Force Civil Engineer Center             1.a, 1.b, 2

      Please provide comments by April 8, 2013.




                                                  ii
Table of Contents


Introduction                                                                     1     


      Objective                                                                  1     

      Background                                                                 1     

      Review of Internal Controls at Air Force Center for Engineering and 

          Environment                                                            4


Finding. Inadequate Oversight of Military Construction in Afghanistan            5


      Contract Oversight and Construction Requirements                           5

      Monitoring of Contractor Performance Did Not Meet Federal Acquisition 

          Regulation Requirements                                                6

      Overreliance on Contractor Support Personnel                               7

      Significant Construction Deficiencies Were Not Identified                  7

      Conclusion                                                                12     

      Management Comments on the Finding and Our Response                       13 

      Recommendations, Management Comments, and Our Response                    13 


Appendix

      Scope and Methodology                                                     15 

          Prior Coverage                                                        16 


Management Comments

      U.S. Forces-Afghanistan                                                   18 

Introduction
Objective
Our objective was to determine whether the Air Force Center for Engineering and the
Environment1 (AFCEE) provided effective oversight of construction projects in
Afghanistan. This is one in a series of audits on contract management and oversight of
military construction (MILCON) projects in Afghanistan. DoD IG Technical Assessment
Directorate (TAD) engineers assisted with the audit and assessed the electrical and fire
protection standards of the designated facilities at Camps Bastion/Leatherneck for
compliance with applicable requirements and specifications. See the appendix for the
scope and methodology and prior coverage related to MILCON in Afghanistan.

Background
AFCEE was a field operating agency for the Air Force Civil Engineer. AFCEE’s mission
was to provide integrated engineering and environmental management, execution, and
technical services that optimize the Air Force and joint capabilities through sustainable
installations. According to AFCEE, they have provided construction services in
Afghanistan since 2006 and have executed over 160 task orders valued at $2.3 billion for
its customers, such as the Combined Security Transition Command-Afghanistan and
U.S. Forces-Afghanistan (USFOR-A).

The 772nd Enterprise Sourcing Squadron (ESS), a unit of the Air Force Materiel
Command’s Enterprise Sourcing Group, provided construction and services contract
support for AFCEE. The 772nd ESS awarded AFCEE MILCON and services contracts,
and 772nd ESS contracting officers appointed AFCEE contracting officer’s
representatives (COR) to assist in the technical monitoring and administration of each
contract.

AFCEE Contingency Construction Division
The AFCEE Contingency Construction Division planned, executed, and delivered
contingency construction and MILCON for customer installations and commands in
warfighting areas. Contingency Construction Division projects were executed typically
under a design build model,2 and historically consisted of both host nation and coalition
military base construction projects.

The AFCEE Contingency MILCON and Minor Construction Branch was aligned with
the Air Force Civil Engineer and the U.S. Army Corps of Engineers to provide execution
agent services for MILCON, minor MILCON, and contingency contracting authority


1
 During our audit, on October 1, 2012, the U.S. Air Force merged AFCEE, the Air Force Real Property

Agency, and the Air Force Civil Engineer Support Agency to create the Air Force Civil Engineer Center 

(AFCEC).

2
  A design build contract combines design and construction in a single contract with one contractor.


                                                   1

execution in the U.S. Central Command (CENTCOM) area of responsibility. The
AFCEE Contingency MILCON and Minor Construction Branch provided
architect-engineer (A-E) services,3 including master planning, area development plans,
concept and full designs, design standards, construction surveillance, and sustainable
design.

MILCON projects in Afghanistan are primarily for installations and facilities that will be
used by U.S. forces. AFCEE personnel executed the majority of its Afghanistan
MILCON projects at Camps Bastion/Leatherneck4 where they executed approximately
$700 million for airfield construction and $200 million for building and structure
construction between 2009 and 2012. AFCEE employed contractors to support
construction in the CENTCOM area of responsibility. Those contractors performed a
variety of functions such as advisory and assistance services, A-E services, project
management, construction quality assurance (QA), technical evaluations, and
administrative support.

Advisory and Assistance Services
The Air Force issued Global Engineering, Integration, and Technical Assistance (GEITA)
advisory and assistance services contracts in 2010 to four contractors for planning,
programming, and on-site project management and administrative support at AFCEE.
Three of those four contractors directly supported the Afghanistan MILCON projects we
reviewed. Portage Incorporated provided project management services for MILCON
projects at Camp Bastion. Booz Allen Hamilton and Team Integrated Engineering, Inc.
(TEAM) provided program and project-level technical and administrative support at
AFCEE San Antonio.

A-E Services
The Air Force issued contracts to 29 contractors in 2008 to perform Title I, Title II, and
other A-E services to administer, coordinate, and technically support MILCON,
environmental, and other programs worldwide. Title I services are a type of A-E service
for project design, to include site investigations, studies, plans, specifications, and
technical calculations. Title II services are also a type of A-E service and include the
inspection or observation of construction operations. Other A-E services are design and
construction-related but are not connected with a specific construction project. For
example, other A-E services can include engineering and feasibility studies, technical
investigations, technical reports and surveys, and environmental impact studies and
statements.




3
  A-E services are professional services of an architectural or engineering nature associated with design or
construction of real property; that logically or justifiably require performance by registered architects or
engineers or their employees; or which state law requires to be performed or approved by a registered
architect or engineer.
4
  Camp Bastion and Camp Leatherneck are adjacent to each other in southwest Afghanistan. Camp Bastion
is under the command of British forces and Camp Leatherneck is under the command of U.S. forces.

                                                     2

The Air Force issued A-E services contract task orders to AECOM Technical Services,
Inc. (AECOM) for Title I planning and design services that would support AFCEE’s end
customers in developing construction project requirements. AECOM personnel
performed Title I services that included all aspects of design, such as preparation or
review of contract plans, specifications, scheduling, cost estimates, building
commissioning services, and preparation of operating and design manuals. These
services consisted of conducting field surveys and investigations to obtain design data, as
well as preparing contract plans, specifications, cost estimates, and estimated
construction periods of performance. During the contract pre-award phase, AFCEE
officials tasked AECOM personnel with collecting requirements data and developing the
contract Statement of Requirement (SOR) for MILCON projects.

AFCEE officials also contracted with AECOM to provide Title II construction
supervision and inspection services for the design and construction of MILCON projects
in Afghanistan. The contracted services included performing design and material
submittal review of all construction contractor submittals, construction QA, and field
oversight and inspection of the construction contractors in Afghanistan. AECOM was
responsible for implementing a QA plan to assure that the MILCON contractor was
fulfilling its obligations under the contract.

MILCON Projects at Camps Bastion/Leatherneck
In January 2012, AFCEE officials provided us with a list of 19 MILCON projects, which
AFCEE administered at Camps Bastion/Leatherneck for U.S. forces. Each of those
projects was valued at over $5 million and the total estimated program amount for those
19 projects was about $474.5 million. For our review, we selected a nonstatistical sample
of 4 of the 19 MILCON projects that were located at Camps Bastion/Leatherneck. The
table below lists the MILCON projects we reviewed as well as their project value.

                Table 1. Camps Bastion/Leatherneck MILCON Projects 

                           Reviewed Totaling $36.9 Million


                                                                                 Project Value
       Construction Project                     Contract Number                    (millions)
  Role 3 Medical Facility
  Expansion                                 FA8903-06-D-8511-068                        $4.6*
  Rotary Wing Parking                       FA8903-06-D-8511-076                        10.6
  Command and Control Facility              FA8903-06-D-8507-025                        13.7
  Secure Reception, Staging,
  Onward-movement, and
  Integration (RSOI) Facility               FA8903-06-D-8505-024                        8.0
    Total                                                                             $36.9
  *
   We selected projects based on their estimated program amount. The values listed in the table represent
  the project’s contract value. The estimated program amount for the Role 3 Medical Facility Expansion
  was $16.5 million when we selected our sample.




                                                   3

Review of Internal Controls at AFCEE
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
July 29, 2010, requires DoD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. We identified internal control
weaknesses at the AFCEE San Antonio and Camps Bastion/Leatherneck offices.
Specifically, AFCEE officials did not develop quality assurance surveillance plans
(QASP) to monitor and assess work performed by AECOM and GEITA personnel to
ensure they met the technical requirements of the contracts. This occurred because they
relied completely on the technical expertise of their contractor personnel, and AFCEE
officials stated the Federal Acquisition Regulation (FAR) requirement for a QASP did
not apply to A-E services contracts. We will provide a copy of the report to the senior
official responsible for internal controls in the Air Force.




                                             4

Finding. Inadequate Oversight of MILCON in
Afghanistan
AFCEE Contingency Construction Division officials did not provide effective oversight
of MILCON projects in Afghanistan. Specifically, AFCEE officials did not develop a
formal process to monitor, assess, and document the quality of work performed by
AECOM, TEAM, Booz Allen Hamilton, and Portage personnel for four projects valued
at $36.9 million. AFCEE officials stated that this occurred because they relied
completely on the technical expertise of their contractor personnel. In addition, AFCEE
officials stated the FAR requirement for a QASP did not apply to A-E services contracts.

As a result, AFCEE’s process for developing and reviewing contract requirements design
was not adequate to prevent conflicting electrical standards from being cited in one
MILCON contract’s Statement of Work (SOW) and SOR and incorrect fire protection
standards from being cited in two contracts’ SORs used during construction. In addition,
AECOM personnel at Camps Bastion/Leatherneck did not identify significant deficient
work performed. The deficiencies led to serious increased hazards to the life and safety
of coalition forces who occupy two of the four facilities reviewed at Camps
Bastion/Leatherneck, and contributed to over a 6-month delay in government acceptance
of one facility.

Contract Oversight and Construction Requirements
The FAR contains the policies and procedures for contract surveillance and oversight.
FAR Part 46, “Quality Assurance,” prescribes policies and procedures to ensure that
services acquired under government contract conform to the contract’s quality and
quantity requirements.5 FAR Subpart 46.4, “Government Contract Quality Assurance,”
states that QASPs should be prepared in conjunction with the statement of work and
should specify all work requiring surveillance and the method of surveillance. Among its
terms, FAR 46.102, “Policy,” requires that agencies ensure services tendered by
contractors meet contract requirements, and Government quality assurance is conducted
before acceptance, by or under direction of Government personnel. According to FAR
Subpart 1.6, “Career Development, Contracting Authority, and Responsibilities,” a COR
assists in the technical monitoring or administration of a contract.

In addition, CENTCOM Regulation Number 415-1, “Construction and Base Camp
Development in the USCENTCOM Area of Responsibility,” (the Sand Book) establishes
responsibilities and procedures for the planning and development of contingency and
permanent base camps as well as establishes standards for facility design, development,
sustainment, and safety. Further, Unified Facilities Criteria guidance provides planning,
design, construction, sustainment, restoration, and modernization criteria, and applies to


5
 When A-E services contracts are involved, FAR Part 36, “Construction and A-E Contracts,” takes
precedence over other FAR requirements where inconsistencies arise. We found no inconsistencies
between FAR Part 36 and the applicable provisions of FAR Part 46.

                                                  5

the Military Departments, the Defense Agencies, and the DoD Field Activities. Lastly,
the National Fire Protection Association develops, publishes, and disseminates more than
300 consensus codes and standards intended to minimize the possibility and effects of
fire and other risks. The National Fire Protection Association codes and standards
applied to the contracts we reviewed.

Monitoring of Contractor Performance Did Not Meet
Federal Acquisition Regulation Requirements
AFCEE Contingency Construction Division officials did not provide effective oversight
of MILCON projects in Afghanistan. Specifically, AFCEE officials did not develop a
formal process to monitor, assess, and document the quality of work performed by
AECOM and GEITA personnel responsible for developing the construction contracts’
SOR and performing technical reviews of proposals submitted by construction
contractors. In addition, AFCEE officials contracted AECOM to perform the QA
oversight of the MILCON projects at Camps Bastion/Leatherneck, but AFCEE officials
did not implement a process to assess the quality or thoroughness of AECOM’s
performance.

Title I and GEITA Performance Needed Oversight
AFCEE officials did not provide oversight of Title I and GEITA personnel responsible
for developing the construction contracts’ SOR and performing technical reviews of
proposals submitted by construction contractors. AFCEE officials contracted with
                                          AECOM for the development of the SOR and
    While AFCEE officials relied on       contract specifications for construction task
       GEITA personnel to provide         orders at Camps Bastion/Leatherneck. AFCEE
        technical expertise during        officials stated after AECOM developed the
  development of the SOR, no AFCEE SOR and contract specifications, GEITA
   official or representative provided    personnel reviewed the SOR and contract
   oversight of the GEITA personnel.      specifications to ensure they met user
                                          requirements. AFCEE officials relied on
GEITA personnel’s technical expertise to make sure that the SOR and specifications met
those requirements. However, while AFCEE officials relied on GEITA personnel to
provide technical expertise during development of the SOR, no AFCEE official or
representative provided oversight of the GEITA personnel. Lastly, AFCEE officials did
not develop a QASP to assist them in providing contract oversight.

According to the FAR, a COR assists in the technical monitoring or administration of a
contract. AFCEE guidance states the COR is responsible for providing oversight of all
contract personnel and that oversight should be documented in accordance with the
surveillance plan. Without adequate oversight, AFCEE officials had no assurance that
GEITA personnel properly performed their review of the SOR and contract specifications
developed by AECOM. AFCEC officials should develop QASPs to guide their oversight
and develop procedures to verify CORs conduct and document that oversight to verify
the work performed is carried out in accordance with contract requirements.



                                           6

AECOM’s Title II Performance Lacked Oversight
AFCEE officials did not provide oversight of AECOM Title II personnel who were
contracted to provide QA of construction projects at Camps Bastion/Leatherneck.
AECOM personnel used a QA plan to monitor the construction contractors’ performance.
However, the AFCEE COR in San Antonio stated that he did not have a process with
which to monitor AECOM’s performance in providing that QA. The AFCEE COR in
San Antonio also stated that he relied on the AFCEE construction contract CORs in
Afghanistan to identify any issues with AECOM’s performance. However, the AFCEE
officer in charge at Camps Bastion/Leatherneck, who was also the AFCEE construction
contract COR, stated he was not required to give performance feedback to the AFCEE
COR in San Antonio regarding AECOM’s performance. Furthermore, AFCEE officials
in San Antonio had difficulty identifying the COR for the Title II contract. Lastly,
AFCEE officials did not develop a QASP to assist them in providing contract oversight
of AECOM’s performance.

Without adequate oversight, AFCEE officials have no assurance that AECOM personnel
conducted effective QA of construction projects at Camps Bastion/Leatherneck. DoD IG
report D-2010-078, “Air Force Use of Time-and-Materials Contracts in Southwest Asia,”
August 16, 2010, previously identified AFCEE’s lack of oversight of Title II contractor
personnel and the lack of a QASP to guide its oversight. In response to that report,
AFCEE officials stated that they drafted and implemented a Title II Quality Assurance
Oversight Strategy to be used by in-country AFCEE CORs. However, we found that
AFCEE officials did not implement this strategy in providing oversight of the Title II
contractor responsible for quality assurance for one of the MILCON projects we
reviewed.

Overreliance on Contractor Support Personnel
AFCEE officials stated that they relied completely on the technical expertise of AECOM
for Title I and Title II services and GEITA personnel to monitor, assess, and document
the quality of work performed by contractor personnel located at AFCEE San Antonio
and Camps Bastion/Leatherneck. Therefore, AFCEE officials stated that they did not
consider it necessary to develop QASPs to monitor the
                                                                   AFCEE officials stated
performance of these contractors. In addition, AFCEE
                                                                  the FAR requirement for
officials stated the FAR requirement for a QASP did not
                                                                  a QASP did not apply to
apply to A-E services contracts. However, the FAR states
                                                                   A-E services contracts.
that the extent and character of the work completed by the
contractor is subject to the general oversight, supervision, direction, control, and approval
of the Contracting Officer. In addition, the FAR does not state that A-E services
contracts are exempt from, or in conflict with, the requirements of FAR Subpart 46.4 and
its guidance on having a QASP.

Significant Construction Deficiencies Were Not Identified
AFCEE’s process for developing and reviewing contract requirements design was not
adequate to prevent conflicting electrical standards from being cited in one MILCON
contract’s SOW and SOR and incorrect fire protection standards from being cited in two

                                             7

MILCON contracts’ SORs. In addition, AECOM’s construction oversight was
inadequate, and therefore, AFCEE officials did not identify life and safety deficiencies
with two of the four MILCON projects we reviewed at Camps Bastion/Leatherneck.
Further, Title II contractor personnel at Camps Bastion/Leatherneck did not identify
deficient work. In addition, the deficient work at one facility contributed to over a
6-month delayed acceptance of the facility by AFCEE officials.

AFCEE Officials Issued Contract with Conflicting Electrical
Standards
AFCEE officials issued a MILCON contract with technical requirements that called for
conflicting electrical standards to be followed. Specifically, the Secure RSOI facility
contract’s SOW called for Lakeshore Engineering Services, Inc., the construction
contractor, to use the National Electrical Code as the standard for all electrical work. The
contract’s SOR, on the other hand, stated that the contractor should use British electrical
standards.
Sand Book Section 5-6.f requires that all electrical work comply with the host nation’s
code, the National Electrical Code, or British Standard 7671. However, according to the
GEITA Project Manager, the construction contractor used both the SOW and SOR as
their guidelines in performing the electrical work for the Secure RSOI facility. Since
both the National Electric Code and British Standard 7671 were referenced in the
contract’s SOW and SOR, the contractor used different electrical standards when
performing its electrical work. According to AFCEE officials, they did not discover the
construction contractor was following two electrical codes until the construction was over
90 percent complete.
In May 2012, DoD IG TAD engineers performed an inspection of the Secure RSOI
facility. TAD engineers determined that not all wiring in the Secure RSOI main
switchboard, Panel PA, men’s restroom, and junction box met either the National Electric
Code or British Standard 7671 requirements, as modified by TF POWER Waiver
#12-001. Specifically, TAD engineers noted multiple inconsistencies in the color coding
of the electrical wires, as identified by the red circle in Figure 1. According to TAD
engineers, the inconsistent application of color codes for grounded and ungrounded
conductors can result in reverse polarity issues and expose personnel to shock hazards
during future maintenance activities. As a result, the construction contractor’s
noncompliance with the electrical waivers placed a heightened risk of life and health
safety in the operation and maintenance of the Secure RSOI facility. AFCEC and
USFOR-A officials should assess the life and safety hazards identified at the Secure
RSOI facility and determine the appropriate actions necessary to correct the electrical
hazards.




                                             8

        Figure 1. Reverse Polarity Issues Can Expose Personnel to Shock Hazards




                     Source: DoD IG

Inadequate Quality Assurance Oversight of MILCON Contractor
As a result of AFCEE officials’ inadequate oversight of the AECOM QA personnel at
Camps Bastion/Leatherneck, AFCEE officials and AECOM QA personnel did not detect
significant electrical deficiencies at the Secure RSOI facility. In addition, the TAD
inspection found serious instances of noncompliance with electrical standards, such as
mislabeled electrical panels, inconsistent color coding of wires, and exposed grounding
wires.

Significant Electrical Deficiencies Not Detected
The AECOM QA Electrical Specialist noted only three electrical deficiencies in the
Secure RSOI facility’s QA Daily Reports. Those deficiencies were:

         electrical junction boxes did not have independent support;
         electrical metal tubing conduits were not secure with straps in various locations in
          the Secure RSOI facility; and
         lightning protection was not installed as per the 100 percent design drawing.

However, the Secure RSOI facility underwent multiple technical inspections upon
construction completion that noted electrical deficiencies that were not found during the
AECOM QA Electrical Specialist’s daily QA oversight conducted over the construction
period. In particular, on December 25, 2011, AECOM personnel performed a pre-final
inspection of the Secure RSOI facility’s electrical system. AECOM personnel found
21 electrical deficiencies.6 For example, a receptacle box was not securely fastened to
the wall and panel boards, receptacles, and switches were not labeled.



6
 According to AFCEE officials, AECOM personnel inspected only 10 percent of the facility during their
pre-final inspection.

                                                   9

On January 2, 2012, DynCorp, the operations and maintenance contractor for the Secure
RSOI facility, performed an electrical inspection.7 The results of DynCorp’s inspection
detailed 29 electrical deficiencies. Subsequently, AFCEE officials requested that Task
Force POWER8 conduct an inspection of the Secure RSOI facility to determine which
electrical deficiencies identified by DynCorp impacted the life, health, or safety of
building occupants or maintenance personnel. The Task Force POWER inspection report
detailed 69 electrical deficiencies9 at the Secure RSOI facility and granted waivers to
AFCEE for some of the deficiencies that it found to not impact life, health, or safety. The
electrical deficiencies at the Secure RSOI facility contributed to over a 6-month delayed
acceptance of the facility by AFCEE officials. However, the contracting officer issued a
performance deficiency letter detailing AFCEE’s issues with regard to the Secure RSOI
facility construction. In addition, according to the Contingency MILCON and Minor
Construction Branch Chief, AFCEE officials made an assessment of liquidated damages
against the responsible contractor.

In May 2012, TAD engineers found that some of the waivers granted by Task Force
POWER had not been fully complied with. In addition, TAD engineers noted serious
instances of noncompliance with electrical standards, such as mislabeled electrical panels
and inconsistent color coding of wires. TAD engineers also identified exposed grounding
wires as shown by Figure 2. If ground wires are not protected, the integrity of the ground
may be compromised, which placed personnel and equipment at risk.
       Figure 2. Exposed Ground Wires Put Personnel and Equipment at Risk




                  Source: DoD IG

TAD engineers also found that light switches were not the correct size for the wire
feeding the switch. The strands of wire were cut away to reduce the wire diameter so it
would fit into the switch wire terminal. The red circle and arrow in Figure 3 shows this
problem. According to TAD engineers, removing strands of wire to force it to fit into a
smaller terminal than it was designed for will reduce the current carrying capability by an
unknown amount and results in a fire hazard.


7
  An AFCEE official stated the purpose of the O&M inspection was for DynCorp to identify any 

deficiencies prior to their acceptance of the facility for future maintenance.

8
  Task Force POWER is the Task Force Protect Our Warfighters and Electrical Resources (POWER). 

9
  The 69 electrical deficiencies detailed by the Task Force POWER report included multiple deficiencies 

that were systemic throughout the facility as well as duplicative instances of these deficiencies. 


                                                    10 

               Figure 3. Cutting Strands of Wire Results in a Fire Hazard




                      Source: DoD IG

Noncompliance With Fire Protection Standards Caused Hazards
to Life and Safety
AFCEE’s process for developing and reviewing contract requirements design was not
adequate to prevent incorrect fire protection standards from being cited in two contracts’
SORs used during construction. Specifically, AFCEE officials improperly used Sand
Book construction waivers to justify their decision to deviate from the applicable fire
protection standards for two of the three projects we reviewed that required a fire
sprinkler system.
Specifically, the Secure RSOI and Command and Control facilities do not have fire
sprinkler systems as required by Unified Facilities Criteria 3-600-01, Section 4-2.2.
Unified Facilities Criteria states that complete automatic sprinkler protection must be
provided in all new or renovated DoD facilities except for certain non-mission essential
buildings, and according to TAD engineers, that sprinkler protection would provide
occupants protection and increased time for building evacuation. AFCEE officials
characterized the Secure RSOI and Command and Control facilities as temporary
construction projects,10 and stated that, as such, those facilities did not need fire sprinkler
systems. Based on the justification provided by the Air Force on the DD Form 1391s for
the Secure RSOI and Command and Control facilities as well as TAD engineers’
assessment, we determined those buildings are mission essential. According to Unified
Facilities Criteria, all mission essential buildings must have fire sprinkler systems, even if




10
 The Sand Book considers facilities constructed to a temporary standard are intended for use up to
24 months but may be used indefinitely.

                                                   11 

those buildings are considered temporary. The lack of a fire sprinkler system in mission
essential buildings with potentially high occupant levels, like the Secure RSOI and
Command and Control facilities, significantly increases the risk to life and safety.

In addition, the Command and Control facility’s means of egress does not comply with
National Fire Protection Association 101, Section 7-7.2, which permits that a maximum
of 50 percent of occupants may discharge through areas on the first floor. For example,
the exit stairs from the second floor of the Command and Control Facility discharge
through the common first floor corridor system. This layout combines the exits, thereby,
providing only a single exit from the second floor. As a result, a fire in this corridor
system can compromise the integrity of all second floor exits. A single means of egress
from assembly occupancies11 is not permitted. Single means of egress for the Command
and Control facility significantly increases the risk to life and safety if occupants need to
evacuate. AFCEC and USFOR-A officials should assess the life and safety hazards
identified at the Secure RSOI and Command and Control facilities and determine the
appropriate actions necessary to correct the fire safety and emergency egress deficiencies.

AFCEE Officials Notified of Hazards and Deficiencies
We notified AFCEE officials of the electrical hazards and fire safety and emergency
egress deficiencies during a site visit to Afghanistan in May 2012 and again during a
meeting held in June 2012. In October 2012, we requested information from AFCEC
officials regarding actions they have taken to address the deficiencies and hazards
identified. According to AFCEC officials, all electrical deficiencies at the Secure RSOI
facility were corrected and last inspected by DynCorp personnel on October 23, 2012. In
addition, AFCEC officials stated that additional strobe lights were installed in the
Command and Control facility on October 15, 2012, and the fire department conducted
its official fire alarm and functionality test on that same date and found no issues.
AFCEC officials also stated that they planned to install additional egress doors on the
second floor of the Command and Control facility. However, AFCEC officials stated
they did not plan to install a fire suppression system in either the Secure RSOI or
Command and Control facilities.

Conclusion
AFCEE’s process for contract requirements design and construction oversight was not
adequate to prevent conflicting electrical and incorrect fire protection standards from
being cited in the construction contracts’ SOW and SOR used during construction. In
addition, AFCEE officials relied completely on the technical expertise of their contractor
personnel and did not develop a formal process to monitor, assess, and document the
quality of work performed by those contractor personnel. As a result, the life and safety
of coalition forces who occupied the Secure RSOI and Command and Control facilities
were at increased risk. To ensure effective government contract quality assurance,
AFCEC officials should develop QASPs for the Title I, Title II, and GEITA contract task
orders. In addition, AFCEC officials should develop procedures to verify CORs conduct


11
     Assembly occupancy is a gathering of 50 or more persons.

                                                     12 

and document appropriate surveillance of contractors as called for in the QASP, so as to
ensure that work performed is carried out in accordance with task order requirements.

Management Comments on the Finding and
Our Response
A summary of the comments from the Director, Joint Programs Integration Office,
USFOR-A, on the finding follow, with our response. The complete text of the Director’s
comments can be found in the Management Comments section at the end of the report.

Comments on AFCEE Waiver
The Director, Joint Programs Integration Office, stated that the draft report referred to
AFCEE Waiver #12-001, which is unrelated to the subject facilities of the draft report.
He stated that TF POWER Waiver #12-001 issued a reprieve from NEC for the facilities
that were built to British Standard 7671. However, he stated that TF POWER Waiver
#12-001 does not apply to the 4 MILCON projects referenced by our report and was not a
blanket waiver for all construction at Camps Bastion/Leatherneck.

Our Response
We agree that the waiver we were referring to was TF POWER Waiver #12-001 and
revised the report. We also agree that the waiver does not apply to all four MILCON
projects referenced by our report. However, based on evidence provided by AFCEE
officials, the “Passenger Handling Facility” referenced by the waiver is the Secure RSOI
facility, which was one of the four locations reviewed as part of the audit.

Recommendations, Management Comments, and Our
Response
1. We recommend that the Director, Air Force Civil Engineer Center:

       a. Develop quality assurance surveillance plans for the Title I, Title II, and
Global Engineering, Integration, and Technical Assistance contract task orders.

        b. Develop procedures to verify contracting officer’s representatives conduct and
document appropriate surveillance of contractors, as called for in the quality assurance
surveillance plan, to ensure that work performed is carried out in accordance with the
task orders.

Management Comments Required
The Director, AFCEC, did not comment on a draft of this report. We request that the
Director provide comments in response to the final report by April 8, 2013.




                                             13 

Revised Recommendation
While we refer to the need for an electrical inspection of the Secure RSOI facility
throughout the finding, we used an incorrect project number in Recommendation 2. As
such, we revised draft Recommendation 2 to include the project number for the Secure
RSOI facility.

2. We recommend that the Director, Air Force Civil Engineer Center and the
Commander, U.S. Forces-Afghanistan assess the life and safety hazard identified at
Military Construction Project 76916 and Project CMBA103400 resulting from
noncompliance with electrical and fire protection standards. Based on the results,
determine the appropriate action(s) to correct the fire safety and emergency egress
deficiencies, as well as any remaining electrical deficiencies.

USFOR-A Comments
The Director, Joint Programs Integration Office, USFOR-A, agreed with the
recommendation with comment. He stated that USFOR-A is conducting an assessment
of the life and safety hazards identified at the Command and Control facility
(Project 76916) and the Role 3 Medical Facility Expansion (Project 74291). In addition,
he stated that TF POWER will perform an electrical safety inspection on both facilities
on or before February 28, 2013. He also stated that TF POWER performed a fire safety
inspection on February 8, 2013, in response to a user-generated request to accept the
increased risk and occupy the Command and Control facility as is. Lastly, he stated that
TF POWER forwarded a waiver request for the installation of a fire suppression system
and directed the remediation of the fire egress deficiencies to limit the risk to occupants.
He stated that USFOR-A is currently working with AFCEC to schedule and execute the
egress enhancements.

Management Comments Required
The Director, AFCEC, did not comment on a draft of this report. We request that the
Director provide comments in response to the final report by April 8, 2013.

Our Response
The Director, Joint Programs Office, USFOR-A, agreed with the recommendation, and
his comments were responsive and met the intent of the recommendation. However,
while we refer to the need for an electrical inspection of the Secure RSOI facility
throughout the finding, we used an incorrect project number in the draft recommendation.
Specifically, we referred to the Role 3 Medical Facility Expansion (Project Number
74291) instead of the Secure RSOI facility (Project Number CMBA103400). As such,
we revised the recommendation and request that the Director provide comments with
regard to whether he will also have an electrical safety inspection performed at the Secure
RSOI facility.




                                             14 

Appendix. Scope and Methodology
We conducted this performance audit from March 2012 through January 2013 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objective.

This audit is one in a series of audits on contract management and oversight of MILCON
projects in Afghanistan. Our objective was to determine whether AFCEE officials
provided effective oversight of construction projects in Afghanistan. Specifically, we
determined whether AFCEE officials properly monitored contractor performance and
adequately performed QA oversight responsibilities during construction in Afghanistan.
We performed the audit at AFCEE offices in the U.S. and Camps Bastion/Leatherneck in
Afghanistan.

We selected a nonstatistical sample of 4 of the 19 MILCON projects located at Camps
Bastion/Leatherneck that were:
     initiated by the U.S. military for U.S. forces;
     approved on a DD Form 1391 and included an estimated program amount greater
      than $5 million;
   	 funded under the annual Military Construction appropriation, a Military
      Construction supplemental appropriation (Global War on Terror or Overseas
      Contingency Operation), or Operations and Maintenance funds under
      Contingency Construction Authority; and
   	 at least 40 percent complete.

We reviewed the contracts for the following four AFCEE MILCON projects at Camps
Bastion/Leatherneck (percent complete when contract chosen listed in parenthesis):

      Contract No. FA8903-06-D-8507-025, Project 76916, Command and Control
       Facility (72% complete)
      Contract No. FA8903-06-D-8511-076, Project 75462, Rotary Wing Parking
       (86-91% complete)
      Contract No. FA8903-06-D-8505-024, Project CMBA103400, Secure RSOI
       Facility (99% complete)
      Contract No. FA8903-06-D-8511-068, Project 74291, Role 3 Medical Facility
       (100% complete)

The team made two site visits to Camps Bastion/Leatherneck. During the first site visit
from April 1 through April 7, 2012, we interviewed the projects’ CORs, QA team
members, project managers, Contractor QC team members, and the user for the
Command and Control and Role 3 Medical facilities. We also performed walkthroughs
of each construction site during the site visit. The team reviewed AFCEE QA reports and
                                           15 

compared them to the construction contractors’ QC reports for indications of significant
QC concerns, contractor work nonperformance or poor performance indicators,
noncompliance with contractual requirements, or contractual disputes. We reviewed any
significant deficiencies identified during the QA/QC inspections and determined whether
they were resolved in a timely manner.

During a second site visit in May 2012, DoD IG TAD personnel performed walkthroughs
of each construction site to assess the electrical and fire protection standards of the
designated facilities on Camps Bastion/Leatherneck for compliance with applicable
requirements and specifications. We also conducted a site visit to AFCEE Headquarters
in San Antonio, Texas in June 2012. While at AFCEE San Antonio, we interviewed the
contracting officers for the construction contracts and the Title II contract, CORs, and
project managers.

Use of Computer-Processed Data
We did not use computer-processed data to perform this audit.

Use of Technical Assistance
DoD IG TAD engineers assisted with the audit. TAD engineers assessed the electrical
and fire protection standards of the designated facilities at Camps Bastion/Leatherneck
for compliance with applicable requirements and specifications. TAD simultaneously
deployed one electrical and one fire protection team consisting of subject matter experts
to assess four sites designated by the audit team to review whether those sites were in
compliance with applicable electrical and fire protection standards. TAD engineers then
documented all issues on finding forms with objective evidence including photographs.

Prior Coverage
During the last 5 years, the DoD IG and the Special Inspector General for Afghanistan
Reconstruction (SIGAR) issued 8 reports, each discussing oversight of MILCON
projects in Afghanistan. Unrestricted DoD IG reports can be accessed at
http://www.dodig.mil/audit/reports. Unrestricted SIGAR reports can be accessed at
http://sigar.mil/auditreports.asp.

DOD IG
DoD IG Report No. DODIG-2013-024, “U.S. Army Corps of Engineers Needs to
Improve Contract Oversight of Military Construction Projects at Bagram Airfield,
Afghanistan,” November 26, 2012

DoD IG Report No. DODIG-2012-057, “Guidance Needed to Prevent Military
Construction Projects From Exceeding the Approved Scope of Work,” February 27, 2012

DoD IG Report No. D-2010-078, “Air Force Use of Time-and-Materials Contracts in
Southwest Asia,” August 16, 2010



                                           16 

DoD IG Report No. D-2009-031, “Afghanistan Security Forces Fund Phase III-Air Force
Real Property Accountability,” December 29, 2008

DoD IG Report No. D-2008-119, “Construction Contracting Procedures Implemented
by the Joint Contracting Command-Iraq/Afghanistan,” September 29, 2008

SIGAR
SIGAR Audit-12-3, “Afghan National Security University Has Experienced Cost
Growth and Schedule Delays, and Contract Administration Needs Improvement,”
October 26, 2011

SIGAR Audit-12-2, “Better Planning and Oversight Could Have Reduced Construction
Delays and Costs at the Kabul Military Training Center,” October 26, 2011

SIGAR Audit-11-9, “ANA Facilities at Mazar-e-Sharif and Herat Generally Met
Construction Requirements, but Contractor Oversight Should be Strengthened,”
April 25, 2011




                                         17 

U.S. Forces-Afghanistan Comments





                 Click to add JPEG file




                                    18
                            Final Report 

                             Reference





                         Revised, page 14 





Click to add JPEG file



                         Revised, page 8





                 19
Click to add JPEG file




                 20
Click to add JPEG file




                 21
Click to add JPEG file




                 22
